CARDHOLDER AGREEMENT
DEFINITIONS. The “Card” means the Pentagon
Federal Credit Union (PenFed) credit card which
we issue to you under this Agreement, and
includes any device or check used to obtain credit
or cash from the Account. Unless otherwise stated,
“Account” means your Card Account with us. An
Authorized User is an individual receiving a Card,
but who has no responsibility for payment of the
Account. The words “you”, “your” and “cardholder”
mean each person, jointly and individually who
holds, signs, retains, uses, or permits others to
use or sign a Card. The words “our”, “we” and “us”
mean PenFed or any of its assignees.
1. AGREEMENT. We agree to extend credit to you
and advance amounts up to your credit limit, but
transaction limits may apply. Your credit limit is
not increased by any credit balance you may have
on your Account. You agree to sign the back of
the Card as soon as you receive it. You agree to
pay us for credit extended for the use of the Card
by you or any other cardholder, along with all
applicable finance charges, fees and insurance, if
any apply. By signing, using or permitting others
to use the Card, you agree to the terms and
conditions contained in this Agreement, on the
Card, on any charge slip resulting from authorized
use of the Card, on any authorized cash advance
slip, and to accept responsibility for all actions
taken with the Card.
2. CREDIT LIMIT. You agree to use the Card
within the credit limit we authorize. You also
agree that we can change your credit limit at any
time. We are not obligated to accept charges that
would cause you to exceed your authorized credit
limit but we may do so in our sole discretion. Any
extension of credit to you, made or honored by
us, shall be at such times and in such amounts
and for such purposes as to conform to this
Agreement, and only when there is no default.
3. CHANGE IN TERMS. You agree that the terms of
this Agreement are applicable to any cardholder.
You also agree that we can change the terms of
this Agreement at any time by adding, deleting,
or modifying any provision of the Agreement.
We will give you notice of any such changes, if
required by law.
Termination of the Account by you or PenFed
will not affect your obligation to pay the Account
balance plus any finance charge and other
charges you owe under this Agreement. You are
responsible for all transactions made to your
Account after termination, unless the transactions
were unauthorized. Should you choose to cancel
your Account, the terms in effect at the time
that you cancel the Account will apply until the
outstanding balance of the Account is paid in
full, unless you are in default. Your Card will no
longer be available for use for new transactions,
including purchases, as the Account will be closed
(if it is not already closed.) Any rewards you have
earned, if applicable, will be forfeited unless they
are redeemed before the Account is closed. If you
do not notify us of your decision to terminate
the Account by the date stated in any notice
we provide, or if you notify us but then use the
Account after the date stated in the notice, you will
be deemed to accept all changes to the Account’s
terms and conditions of this Agreement.
If you are in default because your payment has
not been received within 60 days of the due date,
you do not have the right to reject the changes
we make to this Agreement or the Account’s
terms and conditions.
4. FINANCIAL CONDITION CHANGE. You agree
to advise us of any change in your financial
condition that may affect your creditworthiness
and to provide us with a current loan application
whenever we request one. You expressly
authorize any person, partnership, association,
firm, corporation or consumer reporting agency,

upon our request, to furnish us with information
concerning you relevant to the review and
evaluation of this Account. You understand and
agree that we may terminate your Account upon
reevaluation of your creditworthiness.

finance charges at the purchase rate, forgoing the
grace period. To avoid finance charges on new
purchases after you transfer a balance, you must
pay all balances on your Account including any
balances that you transfer in full by the due date.

5. FINANCE CHARGES WILL BE IMPOSED
IN THE FOLLOWING MANNER AND WILL
BE IN AMOUNTS NOT IN EXCESS OF THOSE
PERMITTED BY LAW:

6. PAYMENTS. A payment delivered by physical
mail must be sent to the address on your periodic
statement and be received by 5:00 pm, Monday
through Friday, excluding holidays, to receive
same day credit. Your payment by mail must
be a check or money order in U.S. dollars with
your account number on the check or money
order and drawn on a U.S. financial institution,
accompanied by the payment voucher from your
statement. Payments received at other locations
or not conforming to these procedures may be
delayed in posting, but not more than 5 business
days from the date of receipt.
PenFed, in its sole discretion, may accept a
check for payment on your Account even though
payment was made before the date of the
check or a check which has a date more than
6 months old. We may delay the availability of
credit until we confirm your payment has cleared.
Payments made electronically through our
automated telephone service, member service
representatives, or our website will be subject
to any processing times disclosed with those
payments.
Your minimum payment due is the greater of
$15 or 2% of the new balance plus the past due
amount, if any, and/or all amounts in excess of the
authorized credit line/limit shown on the periodic
statement. If the new balance does not exceed
$15, only the new balance total is due and is shown
as the minimum payment due. All past due or
over limit amounts are due and must be fully paid
immediately upon notification. You may, however,
pay the total amount due, which is shown as
the new balance, or you may pay any additional
amount you wish over the minimum payment due.
If your payment is not honored or we must return
it to you because it could not be processed, a
returned payment fee may be assessed to your
1
Account .
Your account may have purchases, cash advances,
and balance transfers with different APRs.
You understand and agree that the minimum
monthly payment will be applied first to the card
balance with the lowest APR in the following
order: finance charges, credit life fees (if any),
cash advance balances, balance transfers and
purchase balances. You understand and agree
that payments in excess of the minimum monthly
payment will be applied first to the card balance
bearing the highest rate of interest, then to each
successive balance bearing the next highest rate
of interest until the payment is exhausted. We
may reject and return any payment that creates
a credit balance on your Account. Any credit
balance we allow may not be available until
we confirm that your payment has cleared. We
may reduce the amount of any credit balance
by any new charges. You may write or call us to
request a refund of any available credit balance.
If a credit balance remains on your account for
6 months and the amount is $1 or more, we will
automatically refund it to you, otherwise it will be
removed.
7. DEFAULT. You will be in default if you fail to
make any payment by the Payment Due Date
shown on your Account statement, if you become
insolvent or file bankruptcy, if you become
incompetent or die, if a judgment or garnishment
should be issued against any of your property
including any of your Accounts with us, if we in
good faith consider our or your obligations or
your ability to repay or perform your obligations
with us unsafe or insecure, if this Account or any
other account at PenFed is maintained by you in a
manner that PenFed, in its sole discretion, deems

A. PURCHASES: (1) No finance charge will be
imposed during the next billing cycle (defined as
the time interval between regular monthly billing
statement dates) if you pay the entire new balance
shown on the current periodic statement and we
receive your payment on or before the payment
due date shown on the statement. (2) In all other
cases, a finance charge will be imposed based
on the average daily balance of all purchases
and debit adjustments, hereafter referred to as
purchases. The average daily balance is the sum of
all outstanding purchases, which is determined by
including new purchases and deducting payments
or credits and excluding any unpaid finance
charge for your Account on each day of the billing
cycle divided by the number of days in the billing
cycle. A purchase appearing on the periodic
statement is considered a part of the outstanding
balance from the date of posting. (3) The amount
of the finance charge is calculated by multiplying
the average daily balance for purchases by the
monthly periodic rate. The monthly periodic rate
is the yearly interest rate divided by 12.
B. CASH ADVANCES. (1) There is no grace period
on cash advances. Finance charges accrue on all
cash advance amounts from the date charged
to your Account and continue so long as such
amounts remain outstanding. (2) A finance charge
will be imposed on the average daily balance
of cash advances, which is the sum of the cash
advances outstanding each day during the billing
cycle, divided by the number of days in the billing
cycle. The sum of cash advances is determined by
including new cash advances and deducting any
payments or credits and excluding any unpaid
finance charge. A cash advance appearing on the
periodic statement is considered a part of the
outstanding balance from the date of posting.
(3) The amount of finance charge is calculated
by multiplying the average daily balance for
cash advances by the monthly periodic rate. The
monthly periodic rate is the yearly interest rate
divided by 12.
C. BALANCE TRANSFERS. (1) There is no grace
period on balance transfers. Finance charges
accrue on all regular or promotional balance
transfer amounts from the date posted to your
Account and continue so long as such amounts
remain outstanding. (2) A finance charge will
be imposed on the average daily balance of
balance transfers, which is the sum of the balance
transfers outstanding each day during the billing
cycle, divided by the number of days in the billing
cycle. The sum of balance transfers is determined
by including new balance transfers and deducting
any payments or credit and excluding any unpaid
finance charge. A balance transfer appearing
on the periodic statement is considered a part
of the outstanding balance from the date of
posting. (3) The amount of finance charge is
calculated by multiplying the average daily
balance for each balance transfer by its monthly
periodic rate. The monthly periodic rate is the
yearly interest rate divided by 12. If you transfer
a balance from another financial institution to us,
you will immediately incur finance charges at the
regular or promotional APR available at the time
of the balance transfer and on purchases at the
purchase APR. For instance if you transfer $1,000
at a promotional rate of 0% APR and then make
a purchase of $200, you will immediately accrue

contrary to sound financial practice, or if you fail
to live up to any of your other agreements with
us, to include any PenFed policy or procedure.
Subject to law, if you default on this Agreement,
we can, without giving anyone notice, demand
immediate payment of the remaining balance
due including but not limited to any unpaid
finance charges, late fees and any other charges
due under this Agreement. You also agree our
obligation for further credit extensions shall
immediately end and we may terminate your
Account without further notice to you. We
can do this if you make any false or misleading
statements on your requests for an advance, if
you die, file for bankruptcy or if any other creditor
tries to seize your property.
If your required minimum payment has not
been received within 60 days of the due date,
any balance, including a balance transfer with
a promotional rate, will increase to the Penalty
Annual Percentage Rate (Penalty APR). See
Section 10 below for details of the Penalty APR. If
collection is necessary, you agree to pay all costs
of collection, including attorney’s fees and court
costs, in an amount not more than 25 percent of
the balance due.

transfers, lottery tickets, casino gaming chips,
race track wagers or similar betting transactions;
and any payment using a third party service.

8. LATE PAYMENT FEES. You may be charged a
late payment fee if the Minimum Payment Due is
received 10 or more days past the due date1.
9. VARIABLE RATES. One or more APRs that
apply to your Account may vary with changes
to the Prime Rate, which means your rate can
increase. We calculate the APR by adding a
margin to the Prime Rate published in The Wall
Street Journal. If The Wall Street Journal stops
publishing the Prime Rate, we will select a similar
reference rate and inform you on your billing
statement or through a separate notice. The
“Prime Rate” is the highest (U.S.) Prime Rate
published in the Money Rates section of The
Wall Street Journal. A margin is the percentage
we add to the Prime Rate to calculate the APR.
On the first Tuesday of the first full week of each
month, we determine what the Prime Rate is as
published in the Wall Street Journal. We then add
a margin as set forth in the Summary of Terms
issued with your Card to the Prime Rate to get
the APR for the following month¹. If the APR
increases, you will have to pay a higher periodic
finance charge and may have to make a higher
minimum payment.

15. GRANT OF SECURITY INTEREST IN SHARES.
To protect us if you are in default on any credit
extended or cash advanced under this Account,
you have granted a security interest in all of
your shares, deposits, payments and dividends
which may be received, whether held jointly or
individually, up to the amount of your outstanding
balance. The foregoing security interest includes
the right to apply funds available to you in any
jointly held account on your date of death. This
does not include your individual retirement
accounts (IRA). We may take all the shares
needed by us to repay your credit extension
or cash advance. If it is necessary to take all of
your shares for the payment of this Account, you
understand your membership in PenFed may end.
Collateral securing other loans with the credit
union may also secure this loan.
Additional notice for Visa Secured cardholders: In
consideration of PenFed’s issuing you a Card, you
pledge your PenFed Share account as security
for this line of credit. To protect us if you are in
default on any credit extended or cash advanced
under this Account, you pledge all of your shares,
deposits, payments and dividends which may
be received, whether held jointly or individually,
up to the amount of your outstanding balance.
The foregoing pledge includes the right to
apply funds available to you in any jointly held
account on your date of death. This does not
include your individual retirement accounts
individual retirement account (IRA). We may take
all the shares needed by us to repay your credit
extension or cash advance. If it is necessary to
take all of your shares for the payment of this
Account, you understand your membership in
PenFed may end. Collateral securing other loans
with the credit union may also secure this loan.

10. PENALTY ANNUAL PERCENTAGE RATE. If
your required minimum payment is not received
within 60 days of the due date, your Account
may be subject to change to a Penalty APR. The
Penalty APR will remain in place until you make
three consecutive payments on or before the
date that each payment is due. In addition, your
balance transfer rate for any outstanding balance
transfer amounts will increase to the Penalty
APR. After three consecutive months of on-time
payments, the rates will be reduced to the rates
that applied prior to the increase, unless the
temporary promotional rate has expired or the
index for the variable rate has changed¹.
11. PROMOTIONAL
ANNUAL
PERCENTAGE
RATE. At our option, a special promotional rate
may be offered from time to time. The specific
terms will be provided at the time of the offer.
Generally, the promotional APR will only apply
to select transactions (i.e. purchases or balance
transfers) during the promotional period. The
APR rates for all other transactions, not outlined
in the promotion as eligible for the promotional
APR, will remain unchanged. If your required
minimum payment is not received within 60 days
of the due date, any promotional APR and the
periodic rate for purchases, cash advances, and
balance transfers will increase to the Penalty APR
until 3 consecutive payments are made on time.
12. CASH AND CASH-LIKE TRANSACTIONS.
The following transactions will be treated as
cash advances when conducted with your Card,
account number, checks or mobile device: any
person to person transfers or transfers to any
PenFed or non-PenFed account, bill pay, overdraft
protection, ATM or over the counter advances, the
purchase of travelers checks, foreign currency,
money orders, bail bonds, cryptocurrency, wire

13. ACCOUNT CLOSURE. You or anyone jointly
liable for the Account may terminate the Account
at any time by notifying us orally or in writing.
However, this will not relieve you or any of the
other joint owners from liability for the repayment
of any obligations arising from the use of the
Account. In addition, recurring charges from a
third party vendor/merchant will be charged to
your Account, even though you have requested
cancellation from PenFed. You must cancel the
recurring charge with the third party vendor/
merchant. Upon receipt of your notice, we may
close your Account or suspend your Account
privileges at any time without prior notice. You
must return all of the Cards to us upon request.
14. THIRD PARTY DISCLOSURE. We may disclose
information to third parties, including but not
limited to credit reporting agencies or merchants,
about your Account in order to advise such
third parties of the existence or condition of
your Account, to evaluate your current credit
worthiness, or as otherwise provided by law.

16. CARD DISHONOR. If a merchant refuses the
Card, we will not have any liability or responsibility.
No cash refund will be made to or accepted by
you with respect to any adjustment for goods or
services purchased. All adjustments will be made
by credit to your PenFed Account by a properly
executed credit voucher issued by the merchant.
17. ILLEGAL, EXCESSIVE, OR ABUSIVE CARD
USE. You agree that illegal use of your Card,
or behavior deemed by us to be excessive or
abusive by cardholders(s), will be deemed an
action of default and/or breach of contract and
your Account and other related services may be
terminated at our discretion. You further agree,
should illegal, excessive, or abusive use occur, to
waive any right to sue PenFed for such use or any
activity directly or indirectly related to it. You also
agree to indemnify and hold PenFed harmless
from any suits or other legal action or liability,
directly or indirectly, resulting from such use.
18. AUTHORIZED USER. You may request us
to issue a Card to an individual who has no
financial responsibility under this Agreement.
An Authorized User has the same access to your
Account as you do, subject to any limitations

we may impose. An Authorized User has no
authority to add or delete cardholders, request
a replacement Card or terminate or modify this
Agreement. You may terminate an Authorized
User’s authority to access your Account at any
time. To do this, you must return the Card to
PenFed. You agree that you are responsible
for all charges and cash advances made by
an Authorized User, including charges made
before the Card is returned, recurring charges,
or charges made without the use of the Card
initiated by the Authorized User after termination
of the Authorized User’s access.
19. LIEN. You hereby appoint PenFed as your
agent under a special power of attorney as well as
give your express consent to enable us to charge
against any balance in any of your accounts,
including accounts on which you are a joint owner,
to include any otherwise statutorily protected
funds that may not otherwise be available by
legal process, to pay any indebtedness or other
outstanding financial obligation owed by you or
any person who is listed as a joint owner on your
accounts, including a deceased joint owner. This
does not include your IRA or any other account
for which this provision is not permitted. We may
take such action without further notice to you or
any joint owner. In regard to those funds that have
a statutory protection, you understand that you
may withdraw the special power of attorney and
consent for PenFed to apply such funds to pay
any such indebtedness by notifying us in writing. If
your agency appointment or consent is withdrawn,
PenFed may, in its sole discretion, terminate any
and all services that you have with the credit union.
20. ISSUANCE/USE OF CARD. Upon receipt of
the Card(s), you and all other cardholders agree
that you will sign the signature panel on the back
of the Card(s). The Card remains the property
of Pentagon Federal Credit Union and may be
revoked without notice at any time. The Card must
be surrendered to us upon demand or revocation.
If we employ an agent to obtain the Card, your
Account will be charged with any related fees. No
expired, revoked or otherwise invalid Card shall
be used to obtain or attempt to obtain credit. You
will remain responsible to pay the amount you
owe us according to the terms of this Agreement.
Cancellation of the Account will also terminate any
other products or services offered in conjunction
with it. However, recurring charges from a third
party vendor/merchant will be charged to your
Account, even though you have requested
cancellation. You must cancel the recurring charge
with the third party merchant/vendor.
21. ISSUANCE/USE OF CHECKS. If we issue you
checks, these checks are treated as cash advances
when they are used and presented for payment.
We may refuse to issue or reissue and may also
terminate, limit or modify the use of the checks
without notice to you, and you agree to surrender
the checks upon our demand or upon learning of
our cancellation or withdrawal of the checks. Use
of checks or other methods of access for kiting or
similar activity is an action of default. The checks
at all times remain the property of PenFed and
we may repossess them without the use of court
process. All of the terms and conditions of this
Agreement apply to the use of the checks. Only
check blanks and other methods authorized by
PenFed now and in the future may be used to
obtain funds from your Account. If so authorized
by PenFed, your use of a personal identification
number (PIN) for such purpose shall constitute
your signature. Paid checks become our property
and will not be returned to you. Copies may be
provided, if requested, for a nominal fee for each
item. Should we decline to pay any check, or if
you instruct us not to pay a check, PenFed shall
not be liable, except for gross negligence, for any
action it takes regarding payment or nonpayment
of a check. If we decline to pay a check, a charge
may be made to your Account in the amount
indicated on our current Schedule of Service Fees
brochure, which is available at any branch office,
on request, or at PenFed.org. You will not date any
check later than the date that you write it. If you
do and the check is presented for payment before
its date, PenFed, in its sole discretion may return

it unpaid, or pay it. If we pay it, we will charge the
Account. PenFed may, in its sole discretion, pay a
check which has a date more than six months old.
22. ANNUAL FEE. You may be required to pay a
nonrefundable annual fee for each Account you
have with us for which a Card is issued. You will
pay only one annual fee, even if more than one
Card is issued for your Account. The fee will be
charged annually to your Account. This charge
will appear on your periodic statement for the
billing cycle when it first becomes effective¹.
23. FOREIGN TRANSACTIONS. Purchases and
cash advances made in foreign currencies will be
debited from your Account in U.S. dollars. The
exchange rate between the transaction currency
and the billing currency used for processing
international transactions is either a wholesale
market rate or the government mandated rate in
effect one day prior to the date processed by Visa
and may include an international transaction fee.
24. DEBT PROTECTION PLAN. Your purchase
of the Debt Protection Plan (“Plan”) is optional.
Whether or not you purchase this protection
will not affect your application for credit or the
terms of any existing credit agreement you have
with PenFed. If you do purchase Debt Protection,
you may cancel it at any time by notifying us in
writing. You understand that you may rescind
this plan within 30 days after the date your Debt
Protection becomes effective. If you rescind,
any premiums you have already paid will be
credited to your Account. We can terminate this
Agreement by giving you notice at least 30 days
in advance of the termination. The premium,
method of calculation and assessment are subject
to change. If these terms change, we will provide
written notice before the change goes into effect.
Premiums will accrue on a daily basis and will be
billed to your Account monthly. Complete details
of this optional Debt Protection are included in
The Debt Protection Plan Program Agreement
which you will receive upon enrollment.
25. ASSIGNABILITY OF ACCOUNT. You agree
that PenFed may at any time sell, transfer or
assign your Account.
26. LOST/STOLEN CARD. You are responsible
for the possession and use of the Card and must
maintain the confidentiality of the PIN. You will
notify us at once if you believe your Card has been
lost or stolen, or if you have reason to believe
the Card is being used without your permission.
You may notify us by calling 800-247-5626 or
541-225-6700, or by writing to us at: Pentagon
Federal Credit Union, PO Box 456, Alexandria, VA
22313-0456.
27. LIABILITY FOR UNAUTHORIZED USE. If
your statement has an error or a charge you did
not authorize, you must tell us in writing within
60 days after you get that statement. You must
follow all instructions on that statement. If we
find no error after investigation, you owe us the
original amount plus applicable interest and fees.
You are liable for all authorized use of any Card
issued under the Agreement regardless of the
credit limit or the party using it. You agree to
notify us immediately by calling 800-247-5626
or 541-225-6700, or writing to us at: Pentagon
Federal Credit Union, PO Box 456, Alexandria, VA
22313-0456 if you suspect unauthorized use of
the Card, and to cooperate with us in the recovery
of any amounts advanced based on unauthorized
use. You will not be liable for any unauthorized
use of the Card.
28.STATEMENTS. We will bill you monthly, on a
date selected by us, for amounts due under this
Agreement. If you elect to receive your credit card
statement electronically, you will receive an email
alerting you when your statement is ready to be
viewed online. There may be a $1 fee for each paper
statement received¹. Failure to receive a monthly
statement or electronic statement notification
does not relieve you from making any required
minimum payment. Upon receipt of each periodic
statement, you should examine it and immediately
notify us in writing of any transaction you believe
to be in error. If your Account is a joint account, we
can send statements and notices to either of you.
You agree to notify us promptly of any change in

your name, address, or email address.
29. PAYMENT SKIP OPTION. At our option, we
may provide for a payment skip option, which
means that you may be allowed to skip making
the minimum periodic payment for specified
billing cycles. If you accept this payment skip
option, we will continue to apply the finance
charge as disclosed above, but no late payment
fees will apply to the skipped payment. For the
billing cycle following a skipped payment, all the
terms and conditions of this Agreement (including
minimum periodic payment and applicable late
payment fees) will continue to apply.
30. OTHER AGREEMENTS. All the terms and
conditions of any other agreement between us
and you and/or any other institution that is part of
a network of automated teller machines (ATMs)
in which we participate, and any applicable rules
and regulations, also apply to use of the Card.
There may be minimum and/or maximum limits
on the amount of a cash advance dispensed from
electronic terminals, which accept the Card. All
of the transactions made by electronic means
are subject to verification by us, and any checks
or other items deposited for collection may be
deemed to be received and any other transaction
may be deemed to occur on our next business
day. You understand that transactions may be
limited in some areas.
You agree that we do not waive our rights
under this Agreement if we fail to assert them.
The Agreement binds and benefits us and our
successors and assigns and binds you, your estate
and your personal representatives.
31. APPLICABLE LAW. This Agreement and your
Card and Additional Cards, and all questions about
their legality, enforceability and interpretation,
are governed by the laws of the Commonwealth
of Virginia, USA.
32. MILITARY LENDING ACT. Federal law
provides important protections to members of
the Armed Forces and their dependents relating
to extensions of consumer credit. In general,
the cost of consumer credit to a member of the
Armed Forces and his or her dependent may not
exceed an annual percentage rate of 36 percent.
This rate must include, as applicable to the credit
transaction or account: The cost associated
with credit insurance premium; fees for ancillary
products sold in connection with the credit
transaction; any application fee charged (other
than certain applications fees for specified credit
transactions or accounts); and any participation
fee charged (other than certain participation fees
for a credit card account). For more information,
please contact PenFed at 800-247-5626.
YOUR BILLING RIGHTS (Keep this notice for future
use.) This notice tells you about your rights and our
responsibilities under the Fair Credit Billing Act.
WHAT TO DO IF YOU FIND A MISTAKE ON YOUR
STATEMENT. If you think there is an error on your
statement, write to us at: Pentagon Federal
Credit Union, PO Box 456, Alexandria, VA 223130456. You may also contact us on the Web via our
Secure Online Message Center at: PenFed.org. In
your letter, give us the following information:
• Account information: Your name and account
number.
• Dollar amount: The dollar amount of the
suspected error.
• Description of problem: If you think there is an
error on your bill, describe what you believe is
wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on
your statement.
• At least 3 business days before an automated
payment is scheduled, if you want to stop
payment on the amount you think is wrong.
You must notify us of any potential errors in
writing or electronically. You may call us, but if
you do, we are not required to investigate any
potential errors and you may have to pay the
amount in question.
WHAT WILL HAPPEN AFTER WE RECEIVE
YOUR LETTER. When we receive your letter, we

must do two things:
1. Within 30 days of receiving your letter, we
must tell you that we received your letter. We
will also tell you if we have already corrected
the error.
2. Within 90 days of receiving your letter, we
must either correct the error or explain to you
why we believe the bill is correct.
While we investigate whether or not there has
been an error:
• We cannot try to collect the amount in question,
or report you as delinquent on that amount.
• The charge in question may remain on your
statement, and we may continue to charge you
interest on that amount.
• While you do not have to pay the amount in
question, you are responsible for the remainder
of your balance.
• We can apply any unpaid amount against your
credit limit. After we finish our investigation,
one of two things will happen:
• If we made a mistake: You will not have to pay
the amount in question or any interest or other
fees related to that amount.
• If we do not believe there was a mistake: You
will have to pay the amount in question, along
with applicable interest and fees. We will send
you a statement of the amount you owe and
the date payment is due. We may then report
you as delinquent if you do not pay the amount
we think you owe.
If you receive our explanation but still believe
your bill is wrong, you must write to us within
10 days telling us that you still refuse to pay. If
you do so, we cannot report you as delinquent
without also reporting that you are questioning
your bill. We must tell you the name of anyone
to whom we reported you as delinquent, and
we must let those organizations know when the
matter has been settled between us. If we do not
follow all the rules above, you do not have to pay
the first $50 of the amount you question even if
your bill is correct.
YOUR RIGHTS IF YOU ARE DISSATISFIED WITH
YOUR CREDIT CARD PURCHASES. If you are
dissatisfied with the goods or services that you
have purchased with your credit card and you
have tried in good faith to correct the problem
with the merchant, you may have the right not to
pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your
home state or within 100 miles of your current
mailing address, and the purchase price must
have been more than $50. (Note: Neither of
these is necessary if your purchase was based
on an advertisement we mailed to you, or if we
own the company that sold you the goods or
services.)
2. You must have used your credit card for the
purchase. Purchases made with cash advances
from an ATM or with a check that accesses
your credit card account do not qualify.
3. You must not yet have fully paid for the
purchase.
If all of the criteria above are met and you are
still dissatisfied with the purchase, contact us in
writing or electronically at: Pentagon Federal
Credit Union, PO Box 456, Alexandria, VA
22313-0456, or online at PenFed.org. While we
investigate, the same rules apply to the disputed
amount as discussed above. After we finish our
investigation, we will tell you our decision. At that
point, if we think you owe an amount and you do
not pay, we may report you as delinquent.
____________________________________________________________________________________________

¹ Refer to the Summary of Terms issued with your
Card

Information about this Card is accurate as of
June 2021 but may have changed since then. To
find out what may have changed, please go to
PenFed.org or call 800-247-5626.

Form 1203 (06/21) ©2021 PenFed

